<html>
<title> - ADVANCING THE U.S. TRADE AGENDA: BENEFITS OF EXPANDING U.S. AGRICULTURE TRADE AND ELIMINATING BARRIERS TO U.S. EXPORTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                    ADVANCING THE U.S. TRADE AGENDA:
                       BENEFITS OF EXPANDING U.S.
                   AGRICULTURE TRADE AND ELIMINATING
                        BARRIERS TO U.S. EXPORTS

=======================================================================

                                 HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON TRADE

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2014

                               __________

                            Serial 113-TR05

                               __________

         Printed for the use of the Committee on Ways and Means
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       U.S. GOVERNMENT PUBLISHING OFFICE
21-2112                       WASHINGTON : 2016                       
_______________________________________________________________________________________         
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ea8d9a85aa899f999e828f869ac4898587c4">[email&#160;protected]</a>  
        
         
         


                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
DAVID G. REICHERT, Washington        XAVIER BECERRA, California
CHARLES W. BOUSTANY, JR., Louisiana  LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
JIM GERLACH, Pennsylvania            JOHN B. LARSON, Connecticut
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               RON KIND, Wisconsin
ADRIAN SMITH, Nebraska               BILL PASCRELL, JR., New Jersey
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas                 ALLYSON SCHWARTZ, Pennsylvania
ERIK PAULSEN, Minnesota              DANNY DAVIS, Illinois
KENNY MARCHANT, Texas                LINDA SANCHEZ, California
DIANE BLACK, Tennessee
TOM REED, New York
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
TIM GRIFFIN, Arkansas
JIM RENACCI, Ohio

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel

                                 ______

                         SUBCOMMITTEE ON TRADE

                   DEVIN NUNES, California, Chairman

KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
DAVID G. REICHERT, Washington        RICHARD E. NEAL, Massachusetts
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
AARON SCHOCK, Illinois               RON KIND, Wisconsin
LYNN JENKINS, Kansas
CHARLES W. BOUSTANY, JR., Louisiana
PETER J. ROSKAM, Illinois

                            C O N T E N T S

                               __________
                                                                   Page

Advisory of June 11, 2014 announcing the hearing.................     2

                               WITNESSES

Dermot Hayes, Professor, Pioneer Chair in Agribusiness, Iowa 
  State University...............................................     7
Bob McCan, President, National Cattlemen's Beef Association......    22
Andrei Mikhalevsky, President and CEO, California Dairies Inc....    32
Terence Stewart, Managing Partner, Stewart and Stewart...........    49
Ryan Turner, President, Westside Trading Company.................    41

                       SUBMISSIONS FOR THE RECORD

American Farm Bureau Federation, statement.......................    80
Corn Refiners Association, letter................................    83
European Union, letter...........................................    85
Express Association of America, statement........................    86
Humane Society International and World Animal Protection, 
  statement......................................................    88
National Farmers Union, statement................................    92
National Milk Producers Federation, statement....................    95
National Oilseed Processors Association, statement...............   102
National Pork Producers Council, statement.......................   111

                        QUESTIONS FOR THE RECORD

The Honorable Charles Rangel.....................................    77

 
ADVANCING THE U.S. TRADE AGENDA: BENEFITS OF EXPANDING U.S. AGRICULTURE 
             TRADE AND ELIMINATING BARRIERS TO U.S. EXPORTS

                              ----------                              


                        WEDNESDAY, JUNE 11, 2014

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                     Subcommittee on Trade,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room 1100, Longworth House Office Building, the Honorable Devin 
Nunes [chairman of the subcommittee] presiding.
    [The advisory announcing the hearing follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                              -----------   

    Chairman NUNES. The hearing will come to order. But before 
we start, today is a very special day for us, especially for 
Mr. Rangel. It is his birthday today. So, Charlie, we brought 
you a little--do you want to light the candle and blow it out?
    Mr. RANGEL. Thank you, thank you, thank you.
    Chairman NUNES. Should we do the--anybody know the Boehner 
birthday song? I know you guys know it.
    [Laughter.]
    Chairman NUNES. Okay, ready? Kelly, ready?
    This is your birthday song, it doesn't last too long. Hey.
    [Applause.]
    Mr. RANGEL. Thank you. Thank you.
    Chairman NUNES. And Charlie is 62 today.
    Mr. RANGEL. This is the 22nd anniversary of my 62 years 
old.
    [Laughter.]
    Chairman NUNES. Well, congratulations, Charlie.
    Mr. RANGEL. Thanks a million, Chairman.
    Chairman NUNES. Absolutely. Good morning. Welcome to 
today's hearing on the benefits of expanding U.S. agricultural 
trade and eliminating barriers to agriculture exports--key 
factors in advancing our trade agenda and creating U.S. jobs 
and economic opportunity.
    I would like to make four points. First, the United States 
must remain the world's leading agriculture exporter. We excel 
at producing and exporting a wide variety of agricultural 
products. For example, my home state of California is a leading 
export of dairy, beef, fruits, vegetables, and nuts. Global 
demand for agriculture products is increasing rapidly, creating 
opportunities to boost U.S. economic growth and create U.S. 
jobs by selling to these expanding markets.
    The second point, agriculture exports benefit both rural 
and urban America. America's farmers and ranchers increasingly 
depend, for their livelihood, on exports. In addition, two-
thirds of the jobs supported by agriculture exports are in the 
non-farm sector in diverse areas such as transportation, 
financial services, and biotechnology research.
    Third, we must tear down tariff and non-tariff barriers to 
U.S. agriculture. Tariffs must be eliminated without exclusion. 
In negotiations for the Trans-Pacific partnership, or TPP, I am 
concerned that the Administration is not holding Japan and 
Canada to the level of ambition that Congress has demanded. In 
some cases, a long timeframe may be warranted. But there has to 
be a path to zero. If any countries insist on retaining 
tariffs, then we must complete the negotiations without them, 
and allow them to rejoin when they can commit to full tariff 
elimination.
    A growing concern is non-tariff barriers, particularly 
unwarranted sanitary and phytosanitary or SPS measures. While 
countries can implement measures to protect human, animal, and 
plant health, many measures are actually thinly veiled 
protectionist barriers that ignore science and international 
standards, and do not enhance food safety in any way. I am 
pleased the Administration has heard Congress's message that 
only strong, enforceable rules will ensure that SPS measures 
are transparent, science-based, and are not unduly restrictive.
    I am particularly concerned by European restrictions on the 
use of generic food names, which the EU improperly designates 
as geographical indications. The TPP and the U.S.-EU trade 
negotiations are good opportunities to reduce both tariff and 
non-tariff barriers. To gain support in Congress, these 
agreements must result in complete market access.
    Fourth, to strengthen USTR's position in trade 
negotiations, we must pass Trade Promotion Authority without 
delay. The bipartisan Congressional Trade Priorities Act 
introduced earlier this year would establish clear direction to 
open agricultural markets and address unwarranted SPS measures 
and other trade barriers. If the Administration finishes these 
negotiations before TPA is granted, it will not get the best 
deal for our farmers or other exporters. Therefore, I call on 
the Administration to focus on passing TPA this Congress before 
completing TPP.
    Chairman NUNES. I will now yield to Ranking Member Rangel 
for the purpose of an opening statement.
    Mr. RANGEL. Thank you, Mr. Chairman. This is an important 
and timely hearing. Agriculture imports are important in my 
home state of New York, and to our country as a whole. Many 
markets are still protected, or even closed to our farm, ranch, 
and dairy products. We need to open those markets, and new 
trade agreements are one way to do it.
    But it isn't just foreign governments that deny our farmers 
and ranchers access to the markets. In the case of Cuba, our 
very own government stands in the way. And I know the chairman 
does not agree with me on this issue, and I respect his views, 
but, in my view, the embargo is not working, not for the Cuban 
people, and certainly not for Americans. So, I hope we can work 
together to find a path for the solution of this important 
agricultural issue.
    Another issue we want to discuss today is food safety. 
Without a doubt, some of our trading partners put into place 
laws that they say is about food safety, but they really are 
keeping U.S. products out of their markets. We do need strong 
rules in our trade agreement to prevent this from happening. 
And I want to make certain that we don't agree to a set of 
rules that ends up tying the hands of our own regulators, who 
is trying to keep our people safe, and trying to protect our 
crops from invasive pests. We need to eliminate bogus food 
safety laws, but we also need to preserve the legitimate ones.
    Our regulators are increasingly having to defend these 
rules at the World Trade Organization. In the first years of 
the WTO, U.S. sanitary measures was challenged just twice. But 
in the last five years U.S. measures had been challenged five 
times. It is important to remember that what makes U.S. 
products so attractive to other markets is their quality. And 
our regulatory regime supports that quality. Our regulators do 
their best to make certain that we don't produce tainted food. 
They protect our growers by doing their best to keep away 
invasive pests. We need to make certain that any rules that we 
sign into free trade agreements allow them to continue to 
follow these high standards.
    Finally, let me say a word about the Trans-Pacific 
Partnership negotiations. They're at a critical stage, and our 
attentions need to be focused on ensuring an outcome that this 
Congress can support. We need to work with our colleagues, with 
our stakeholders, and the Administration, on major outstanding 
issues, as you pointed out, including tariff, as well as non-
tariff barriers on the agricultural products.
    In Japan, in particular, have not--they have not 
demonstrated an interest in opening up their agricultural 
market, nor has Japan shown an interest in opening up its 
automobile market, for that matter. Unfortunately, Japan's 
position in these negotiations looks like a real problem that 
still yet has to be resolved.
    Some say the problem is that we haven't passed trade 
promotion authority legislation, that Japan won't get serious 
until TPA is in place. I don't believe that argument fits with 
the facts. To the contrary, I think a lot of Members want to 
make certain what the TPP negotiations are moving in the right 
directions right now. I don't believe it is helpful to blame 
ourselves for the position that has been taken consistently by 
the Japanese Government.
    So, I think these hearings are timely. I thank the chairman 
for holding them. And I thank the witnesses for taking the time 
to share their views with us this morning.
    Chairman NUNES. Thank you, Mr. Rangel. Today we are joined 
by five witnesses.
    First we will hear from Professor Dermot Hayes, the Pioneer 
Hybrid International Chair in Agribusiness, professor for 
economics, and professor of finance at Iowa State University. 
Professor Hayes is a highly regarded agriculture economic 
expert, particularly regarding trade.
    Second we will hear from Bob McCan, who is President of the 
National Cattlemen's Beef Association and oversees the cattle 
and other operations of his family's company, McFaddin 
Enterprises, in Texas. Mr. McCan has a distinguished record as 
a leader in the cattle industry.
    Third we will hear from Andrei Mikhalevsky, President and 
CEO of California Dairies. California Dairies is a top dairy-
processing cooperative in the leading dairy-producing state in 
the country.
    Fourth we will hear from Ryan Turner, President of West 
Side Trading, a leading almond, pistachio, and walnut trading 
company.
    Finally, we will hear from Terence Stewart, managing 
partner of the Law Offices of Stewart and Stewart.
    We welcome all of you, and we look forward to your 
testimony.
    Before recognizing our first witness let me note that our 
time this morning is limited so witnesses should limit their 
testimony to five minutes, and Members should keep their 
questioning to five minutes.
    Professor Hayes, your written statement, like those of all 
the other witnesses, will be made part of the record. You are 
now recognized for five minutes.

    STATEMENT OF DERMOT HAYES, PROFESSOR, PIONEER CHAIR IN 
              AGRIBUSINESS, IOWA STATE UNIVERSITY

    Mr. HAYES. Chairman Nunes, Ranking Member Rangel, thank you 
for focusing on this issue at this time. The trade negotiations 
that are underway with the Pacific Rim and with Europe have the 
potential to fundamentally transform U.S. agriculture.
    In the first class, when I teach Economics 101, I contrive 
to get two copies of a textbook into the hands of one student. 
I recognize that student, and then find a student who has yet 
to purchase the textbook. The second copy is worth almost 
nothing to the first student, but it is worth about $100 to the 
second student. When they trade, each student comes out--they 
typically trade at about $50, and each student comes out $50 
ahead. In that sense, wealth is created with free trade. And 
the theory that underlies the economic arguments in favor of 
free trade are based on that simple principle: you take 
resources from a place where they are in plenty supply, and you 
move them to a place where it is scarce.
    Now, as it happens, the U.S. has an abundance of 
agricultural resources. So we are a natural exporter of 
agricultural products. The problem is that the countries that 
have imposed trade barriers on value-added agricultural 
products, whereas they allow their raw materials to enter free. 
So if these negotiations are successful, we will end up adding 
much more value-added agriculture products to--and those 
industries will effectively move from places like Asia back 
into the U.S.
    As crop production technology has improved in the U.S., 
rural areas have become depopulated. And this is a real 
opportunity to repopulate those areas with people working in 
livestock and dairy sectors, and with industries that use 
livestock and dairy products such as ice cream or manufacturing 
eggs. So that is the punch line.
    So I see enormous opportunity here for my part of the world 
in Iowa, and for all of rural America. And I really appreciate 
your focusing at this time on this issue.
    I want to make two points specifically to the ongoing 
agreements. The first is about Japan and the TPP, and the 
second is about Europe and the regulatory equivalence that we 
should ask for.
    Prior to the entrance of Japan, the focus of the 
negotiations was to eliminate all duties and non-tariff 
barriers, and progress was very, very successful. 
Unfortunately, Japan has recently hijacked the negotiations by 
insisting on permanent protection for its beef, pork, dairy, 
wheat, rice, and sugar sectors. As announced, the intention of 
using the money generated by these duties to subsidize the 
relevant sectors--so, for example, duties collected on imported 
pork would be used to subsidize the Japanese pork sector. And, 
in that sense, the U.S. pork producer is paying a tax to 
subsidize their competitor.
    I sincerely hope that our negotiators will hold out for an 
agreement that results in eventual free trade, and I do so for 
the following reasons.
    The benefits of trade I described earlier come from the 
reallocation of resources, putting the resources in the right 
place at the right time. What Japan is asking for is, 
essentially, allowing free trade, but one student has to end up 
with two textbooks. And that doesn't make sense. You can't 
protect a sector under free trade.
    The second, Japan has insisted on this outcome because of 
food security. But Japan imports all of its feed grains. And 
so, you don't get much food security from animals that are 
located in Japan, but which are--rely exclusively on imported 
feed.
    And, third, if Japan gets away with this distortion, then 
other countries that join the TPP, such as China, will ask for 
a similar rule. And, in that sense, we could lose billions of 
dollars in trade because of a giveaway right now.
    Next I want to talk about equivalence and Europe. Right 
now, in the U.S. corn market, we have a serious disruption 
because China did not recognize one of our scientific 
technologies, one of the varieties we grew last year, and it is 
causing enormous disruption in that market. Now, the solution 
to that would be for China and the U.S. to agree on similar 
science. And, in so doing, when U.S. scientists approve of a 
technology then it would be automatically approved in China. 
That is called equivalence, and the U.S. has asked for that 
equivalence in all of its--in most of its free trade 
agreements.
    And equivalence works because the scientists can eventually 
form a consensus on what is safe. The process breaks down if 
non-scientific arguments are introduced. The European Union has 
allowed this to happen, and has imposed bans on genetically 
modified crops and growth enhancers in livestock that 
scientists all over the world view as being perfectly safe. 
Now, I realize that some consumers in the U.S. oppose these 
technologies. But under the U.S. system, these consumers have a 
choice. The European system eliminates this choice, and it is 
as if the people who shop in Whole Foods in the U.S. had a veto 
power over the rest of us.
    And in a well-structured TTIP agreement, the U.S. and EU 
systems will be viewed as equivalent, and European consumers 
will have a choice amongst the alternatives. Unless the deal 
results in regulatory equivalence, countries will be able to 
impose new subjective barriers to replace those that have been 
eliminated. With equivalence, the U.S. will be able to avoid 
the type of trade distortion currently roiling the U.S. corn 
market. Thank you.
    [The prepared statement of Mr. Hayes follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                              -----------   

    Chairman NUNES. Mr. McCan, you are now recognized for five 
minutes.

 STATEMENT OF BOB MCCAN, PRESIDENT, NATIONAL CATTLEMEN'S BEEF 
                          ASSOCIATION

    Mr. MCCAN. Chairman Nunes, Ranking Member Rangel, and 
Members of the Committee, on behalf of the U.S. beef industry I 
thank you for holding this hearing on the benefits of expanding 
U.S. agricultural trade, and eliminating barriers to U.S. 
exports. I am a rancher from Victoria, Texas, located in 
southern Texas, near the Gulf of Mexico, not far from the 
Mexican border. I am also the current president of the National 
Cattlemen's Beef Association.
    For NCBA, the elimination of tariff and non-tariff trade 
barriers is a top priority for the U.S. beef industry. We view 
potential trade agreements like the Trans-Pacific Partnership 
as a great opportunity to eliminate tariffs, quotas, and non-
tariff trade barriers to all TPP countries. Terms that all 
countries, including Japan, should agree to.
    NCBA is also a strong supporter of trade promotion 
authority because, without it, our negotiators will have a 
difficult time finalizing terms of TPP. Unlike other parts of 
our culture, the U.S. beef industry is not subsidized, nor do 
we wish to be. To put it plainly, we thrive on competition, and 
we live and die by the marketplace. The only guarantee we have 
is that if we do not deliver a high-quality product to our 
growing consumer base, then we will lose market share to 
another country. At the same time, we are successful because we 
do everything we can to give our consumers what they want: a 
safe, tender, delicious product.
    Many times, U.S. beef has been the victim of trade terms 
that have been driven by politics and not science. For 
instance, the United States has one of the safest risk 
designations from the World Organization for Animal Health, yet 
we continue to have age-based restrictions on our product that 
are not supported by science. It is estimated that U.S. beef 
has lost over $20 billion in export opportunities due to BSE 
restrictions alone.
    The removal of tariffs and quota restrictions are important 
to our future success. But just as important is the 
establishment of trade terms based on sound science. 
Unfortunately, U.S. beef has also been victim to U.S. trade 
policies that are also based on politics instead of science. As 
you may know, we are facing an intense drought throughout 
California and the southwestern part of the Unites States. Our 
herd size in the United States is the smallest it has been 
since the 1950s.
    At the same time, international demand for U.S. beef is at 
an all-time high. In order to continue meeting demand, we rely 
on the importation of Mexican-born and Canadian-born cattle to 
supplement our herd loss. My family has been importing Mexican-
born calves for many years, and we have enjoyed the benefits of 
international trade. Unfortunately, the cost of compliance of 
mandatory country-of-origin labeling has driven some feed yards 
and processors out of the business, creating less competition 
for my cattle. And that places me, and cattlemen like me, at a 
disadvantage.
    And if the World Trade Organization rules against the 
United States on the pending appeal, you can rest assured that 
beef will be at the top of the list of retaliatory tariffs. 
Mexico and Canada are two of our largest export markets for 
beef. But they won't be for very long if we face retaliation.
    So, it is my hope that my testimony will highlight expanded 
trade opportunities, as well as the barricades to trade that we 
continue to face in the U.S. beef industry. I appreciate this 
opportunity to appear before you today, and I look forward to 
answering any of your questions. Thank you very much.
    [The prepared statement of Mr. McCan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                              -----------   

    Chairman NUNES. Thank you, Mr. McCan. Mr.--I should know 
how to pronounce your name, but it is--you are my constituent, 
so I should know.
    Mr. MIKHALEVSKY. Andrei is fine.
    Chairman NUNES. Andrei.
    Mr. MIKHALEVSKY. Andrei is perfect.
    Chairman NUNES. You are now recognized for five minutes.

STATEMENT OF ANDREI MIKHALEVSKY, PRESIDENT AND CEO, CALIFORNIA 
                          DAIRIES INC.

    Mr. MIKHALEVSKY. Thank you very much. Thank you, Mr. 
Chairman and committee, for allowing California Dairies to come 
speak with you today regarding a subject that it very important 
to us, and it is a big part of our business every day.
    My name is difficult, but I am Andrei Mikhalevsky, and I am 
president and CEO of California Dairies. And I have been 
fortunate in my career to be able to manage dairy businesses on 
six continents, and the seventh continent doesn't have many 
dairy cows right now.
    My comments today will focus, really, in three areas. The 
first is the opportunity for U.S. dairy exports; the second the 
key barriers that we face in exporting product; and third, the 
upcoming free trade agreements.
    California Dairies may not be familiar to everyone, but we 
are a member-owned cooperative based in California, and a major 
dairy exporter today. You can find our products on your local 
grocery store shelves in all 50 states, and you can find it in 
50 foreign countries, also. We are responsible for 12 percent 
of U.S. dairy exports. We export already today over 425 million 
pounds of milk products every single year. And increasing these 
dairy exports is very important to our industry, beneficial to 
the United States, and also good for California Dairies.
    And I will give you three areas that we believe these 
benefits are centered: first it is around economic and 
financial benefits; second, it creates jobs domestically and 
creates jobs internationally; and, third, we believe there is 
implications for national security of having a good dairy 
export business.
    In 2013, just last year, the industry reported a record 15 
percent of all milk in the United States was exported valued at 
about $6.7 billion. One day of every week's production of 
milk--so one day of milking cows--now goes into export in the 
United States. And in 2014, this year, California Dairies will 
export more milk powder than we will sell domestically in the 
United States. So we have become a larger exporter than we are 
domestic seller in milk powder.
    And the U.S. dairy industry is currently in a state of 
transition from an inward-facing industry to a dominant world 
exporter. And the question might be asked, ``Why is there a 
change in the U.S. dairy industry?'' And the answer is, really, 
opportunity. We all know the worldwide demand for dairy 
continues to grow, driven by population growth and disposable 
income growth. And this is creating a large demand gap in the 
world market for dairy products. And dairy is very important. 
Remember, people start from infants using dairy, all the way 
through old age.
    But there is barriers to us taking advantage of that export 
growth, and they fall in the areas that were earlier mentioned: 
tariff barriers; non-tariff barriers; and internal domestic 
barriers, which we haven't mentioned.
    Let me first give an example of tariff barriers. Canada and 
Japan, today who are in the news, both imposed astronomically 
high tariffs on imported dairy products. The tariffs we face 
every day are between 250 and 300 percent of the value of the 
product that we ship into those countries. So, basically, 
impossible to meet.
    There is also non-tariff barriers, which are commonly known 
as SPS measures, sanitary and phytosanitary measures. Those are 
being abused in markets around the world.
    And third, geographical indications. And the EU, as we all 
know, is probably the most aggressive and abusive in its 
interpretation of these GIs.
    I would also just note that there are internal barriers 
that we face also, but that is a conversation for another day.
    I would like to shift now to free trade agreements. We have 
talked about the TPP and the TTIP, TTIP. And both of these are 
wonderful opportunities for us to break down these barriers and 
expand our area of exports. And so I would like to just share 
our viewpoint in a few sentences.
    First, we actively support the inclusion of dairy in all 
FTAs. We would like dairy in.
    The second thing we would like to see is the inclusion of 
all dairy products. For example, the South Korean FTA excludes 
things like butter. It is a fundamental product, and we would 
like to have all products in the FTAs.
    We support the complete elimination of all tariffs. We need 
a level playing field with our competitors. China, for example, 
we don't have a level playing field with New Zealand. They get 
the first 300,000 tons in there at a reduced tariff. We need a 
level playing field.
    Market access must be real, measurable, and equitable. And 
we believe that TPP and TTIP are really the most likely--the 
most important trade agreements that we have seen in a 
generation. California Dairies also highly supports trade 
promotion authority. We think it is essential.
    So, in summary, there is a great opportunity here. But to 
achieve the success, we must have FTAs that are comprehensive 
and inclusive of all dairy, including zero tariff access, and 
ensure that unjustified non-tariff barriers and regulatory 
requirements do not block us, moving forward. Thank you very 
much for your time today.
    [The prepared statement of Mr. Mikhalevsky follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                              -----------   
                              
    Chairman NUNES. Thank you, Mr. Mikhalevsky. Mr. Turner, you 
are now recognized for five minutes.

 STATEMENT OF RYAN TURNER, PRESIDENT, WESTSIDE TRADING COMPANY

    Mr. TURNER. Good morning, Chairman Nunes, Ranking Member 
Rangel, and the Members of the Subcommittee on Trade. Thank you 
for inviting me to be here with you today. My name is Ryan 
Turner, and I am here to testify today as a farmer and as the 
president of Westside Trading Company, WTC. I founded WTC 
three-and-a-half years ago to export California almonds, 
walnuts, and pistachios.
    WTC is a trading company that buys product from farmers and 
packers and resells the product exclusively into export 
markets. WTC specifically finds its niche in taking the export 
risk for our suppliers. After purchasing the product from 
California growers and processors, we are responsible for 
payment to supplier, marketing, logistics, documentation, and 
collection of the export sale. Any export-import problems, 
failure to collect funds, false quality claim from the end 
customer, it all falls on WTC. And we make our name by 
insulating the suppliers from these risks. So we truly are on 
the front lines of the trade discussion.
    Since the inception of the company, we have exported to 
more than 40 countries around the world. We have exported to 
Canada and Mexico, South America, all over Europe and Eastern 
Europe, Russia, Middle East, North Africa, as well as China, 
India, Singapore, and Bangladesh. About 85 percent of the 
products we have shipped to date are almonds, and so I will 
focus, in the interest of time, on almonds for the rest of the 
testimony.
    The California almond industry is a great example of the 
strong U.S. industry that dominates the world market because of 
our significant long-term investment, innovation, high food 
safety standards, and strong global marketing. California 
almonds add $2.82 billion in export value in the 2012-2013 
season, ranks as California's largest agricultural export, and 
the U.S.'s largest specialty crop export. Currently, more than 
80 percent of the world's supply of almonds are grown and 
produced in California.
    The U.S. is the largest buyer of California almonds, 
consuming, on average, about a third of our supply. However, 
that means that, on average, two-thirds of California almonds 
are exported. The top 5 export countries are China, at 
approximately 10 percent of the U.S. crop, followed by Spain, 
India, Germany, and UAE. In total, California exported directly 
to 57 countries last season.
    The California almond industry is dependent on export for 
the long-term sustainability of the industry, but it is also a 
huge success story. Over the past decade, export growth has 
averaged nearly 10 percent, year after year. The industry has 
not been able to wait for trade agreements in many countries, 
but has forged ahead in tackling major issues, opening new 
markets around the globe. These challenges, though, however, 
come at a high risk to farmers, processors, and exporters, as 
well as our overseas processors and the end user, ultimately 
increasing the cost of our products to consumers, worldwide.
    WTC faces export challenges head-on every day, due to trade 
barriers that exist in markets around the globe. From tariffs 
and SPS differences to banking and finance rules, as well as 
labeling requirements, port protocols, documentation 
requirements, as well as dispute resolution issues. The almond 
industry faces tariffs, specifically, in dozens of its markets. 
However, like in other industries where the product is in 
strong demand, gray market activities are developed to avoid 
such tariffs. The biggest examples exist in two of our largest 
export markets, China and India.
    The vast majority of almonds are exported to China, are 
shipped from California to Hong Kong, then redirected through 
Vietnam and trucked north to various points for delivery to 
processing plants mainly in China. Most U.S. exporters ship to 
Hong Kong and are paid for the product at that point. While it 
customarily only takes two weeks or so to ship a container from 
California to Hong Kong, it could take an additional three to 
four to move that product through the gray channels to the end 
user.
    While a larger percentage of customers actually pay the 
tariff in India and take delivery in major ports, more and more 
importers have begun to smuggle the product from Kashmir. This 
product is mostly shipped from U.S. to Dubai and then shipped 
in trucks, via trucks, saving the importer the tariff. While 
lower trade barriers and relatively strong business protections 
in Dubai and Hong Kong keep risks lower for us exporters, the 
risks borne by our end customers through the gray channels 
increases their risk and delays shipment of product.
    In addition to the gray markets, where product is 
physically moved to avoid tariffs, many markets in the Middle 
East rely on falsification of documents to reduce tariff 
exposure. These practices create challenges that differ in each 
market which require exporters to constantly stay on defense, 
to ensure that gray market behaviors do not put our companies 
and our products at risk.
    The U.S. produces the safest food and food products in the 
world. Agricultural and food safety regulations, coupled with 
innovation of farmers and processors themselves, have given our 
products the strongest reputation for quality. However, 
differing SPS standards in some of our export markets create 
major problems, add costs, and, at times, significantly put our 
products at risk. Whether it is lower allowable levels of 
aflatoxin in the EU, or the ever-increasing changing and 
somewhat arbitrary standards in other parts of the world, it is 
extremely important that SPS standards must be, at a minimum, 
based on science.
    We have had many loads returned to the U.S., and many more 
held at ports for long periods of time, subjecting our products 
to additional testing and fees for results that we never see. 
It is very important that any new trade agreement address 
banking finance and dispute resolution protocols, as well, so 
that exporters such as ourself can have more confidence in 
international collection and contract enforcement. We have had 
minor typographical errors lead to major searches of funds, we 
have had several international banks release documents prior to 
payment, we have had ports release containers without proper 
documentation, we have had money rerouted and lost through 
illegal foreign currency traders. These are just a few of our 
examples caused by lack of uniform standards.
    In conclusion, multi-faceted, comprehensive, regional trade 
agreements that not only level the playing field, but normalize 
business practices between the U.S. and its trading partners, 
will allow us to grow export markets faster and more reliably. 
Thank you for your time.
    [The prepared statement of Mr. Turner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                              -----------   

    Chairman NUNES. Thank you, Mr. Turner. Mr. Stewart, you are 
recognized for five minutes.

  STATEMENT OF TERENCE STEWART, MANAGING PARTNER, STEWART AND 
                            STEWART

    Mr. STEWART. Thank you, Mr. Chairman, Ranking Member 
Rangel, Members of the Subcommittee. I am here in my personal 
capacity, not representing any particular clients. We have had 
the opportunity to work with agricultural fishery groups over 
the years.
    There is little doubt that the United States, as the 
world's largest agricultural exporter, faces many unwarranted 
barriers abroad, and that a key priority in any trade 
negotiation should be the liberalization of tariffs, quotas, 
and non-tariff barriers, such as SPS measures, and an effort to 
restrict our friends in Europe in their effort to claim that 
nothing can be shipped that doesn't come from Europe because of 
geographical indications. Those are givens.
    Global trade in agriculture in 2012 was $1.6 trillion. The 
United States occupied about 8 to 9 percent of that, at 148 
billion. And what our true exports could have been, if we had 
had much more open markets, is anybody's guess. But it 
certainly would be a far larger percentage and a far larger 
dollar amount. So there are, obviously, enormous opportunities 
for American business, American workers, and rural America, in 
terms of liberalization of agriculture.
    At the same time, when one looks at SPS measures, there is 
a tension between food safety, on the one hand, and control of 
the SPS measures on the other. The World Trade Agreement's 
sanitary/phytosanitary agreement is the first global effort to 
try to put some discipline into SPS measures. The United States 
has tried to use that agreement to upgrade or harmonize, in an 
upward direction, international standards. That is a desirable 
objective. At the same time, we run into serious cultural and 
political problems in other major trading partners. Europe has 
been identified as one, and certainly the problems our beef 
industry has faced from the BSE and that our grains exporters 
have faced from genetically modified challenges around the 
world are significant challenges.
    When you look at it from the import side, which, from a 
U.S. perspective, is relevant, as well, to consumers, the issue 
is not whether there should be liberalization, the issue is 
whether or not the liberalization is coupled with the ability 
to ensure that products that enter the United States maintain 
the food quality that the United States has been famous for, 
and that U.S. consumers expect. That is an issue which, as 
trade has developed with a lot of developing countries, is a 
much more complicated matter. The United States engages in a 
lot of technical assistance to try to help other countries 
raise their standards, and that is important to do. But there 
are many stories, including in seafood, but certainly also in 
other agricultural products, where imported products contain 
elements which are banned in the United States and yet have 
made it into our food supply.
    So, there are legitimate concerns from consumers about the 
safety of their food supply. And, as you look at trade 
negotiations, it is important that that aspect be dealt with. 
At the same time, the merits of an SPS measure are often in the 
eyes of the beholder. We--USTR puts out an annual report. There 
is more than 100 measures that we identify abroad that are 
problematic to U.S. exporters. Europe puts out its own report, 
and there is a large list of things that they complain about in 
terms of the United States. Dialogue is a critical element if 
you are, in fact, going to get past disputes, and if you are, 
in fact, going to facilitate the liberalization in agriculture, 
particularly an SPS measure.
    Technical assistance is important. With that I think that 
you have a big challenge ahead of you, in terms of getting our 
trading partners to comply. Japan is a classic example, and I 
wish you great success, and the Administration great success in 
that effort. Thank you.
    [The prepared statement of Mr. Stewart follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                              -----------   

    Chairman NUNES. Thank you, Mr. Stewart. Since you discussed 
SPS measures, we will start on SPS. The real issue is whether 
or not we are going to have dispute resolution. Because, as all 
of you are well aware, all of the other areas of the economy 
and all the previous trade agreements are subject to dispute 
resolution. Agriculture, however, has always been left at the 
table without dispute resolution, and so they are forced to go 
to the WTO, which can take years and years to come to 
resolution.
    So, do you see any problem with having--and I will just 
start with Mr. Stewart and I will ask the same question--a 
dispute resolution mechanism in TPP?
    Mr. STEWART. The answer is I don't see a problem with 
having dispute resolution in any free trade agreement. The real 
issue is how it will be administered, and whether there is 
agreement, in terms of the basic terms and conditions. The 
challenge that we face in the WTO, as an example, where there 
is dispute settlement, is that we are the subject of 8 of 41 
challenges that have been made. If you were to step back and 
ask yourself would you expect the United States to be one of 
the worst offenders in terms of SPS measures, I think your 
answer would be the same as mine: obviously not.
    So, part of the challenge is whether the rules actually 
work to conform practice to what you have agreed to, or whether 
it becomes a forum for people to achieve that which they 
haven't achieved through the negotiations themselves. But I 
don't have a philosophical issue with having dispute settlement 
in TPP or any other agreement.
    Chairman NUNES. Thank you, Mr. Stewart. One of the reasons 
I wanted to have Mr. Turner here is because he is an exporter. 
Mr. Turner, I don't know if you could walk the committee 
through a real-life example of the problems that you face. If 
you could pick one example and just kind of walk the committee 
through where you faced an SPS measure that has blocked the 
entry of your product.
    Mr. TURNER. The most consistent SPS issue that we deal with 
is in Europe. And Europe has, as I mentioned, lower allowable 
levels for aflatoxin. And so, there is now an entirely 
different process to deal with and work with the EU in getting 
product in.
    But basically, because they require a lower allowable 
level, the almond board has worked with the industry to create 
what we call a--or what is called a VASP. So it is a voluntary 
aflatoxin sampling program--I believe it is program. And so, 
every single load that is going to go to Europe has to 
basically have this additional test. Right? And it is a--
sampling procedures that are required by Europe. Then we go 
through the entire process, and then it has got to have this 
VASP report.
    We have probably had a--I would say maybe about 10 loads 
that we have had stuck for any sort of reason, but just related 
to not having the proper VASP. So when we ship product, all of 
it has been certified, inspected by USDA, internal, as well--
internals, as well. And we shop that product. Europe requires 
the VASP, though. So if you--we have had product that we have 
shipped to the Middle East. We need to redirect it, it can't go 
to Europe. So that is it.
    Chairman NUNES. Thank you, Mr. Turner. I am going to shift 
gears, Mr. Mikhalevsky, to talk about TPP. Specifically, you 
are probably well aware, but there has been rumors floating 
around that Japan has hundreds of items that they want to take 
off the table. And in your testimony you mentioned how butter 
was left out of the South Korean agreement. What do you think 
the solution is?
    For example, if Japan does not want to reduce these tariffs 
and take them to zero, should we wait and have Japan come in 
later? Or do you have any other options of how we could move 
forward?
    Mr. MIKHALEVSKY. Well, I truly believe, optimistically, 
that with proper negotiation we can get Japan in. And it is 
very important. Japan is a highly developed market in dairy. It 
is very important to us. There is a lot of things in TPP and 
TTIP. Ultimately, they will probably be the blueprint for maybe 
70 percent of the traded dairy around the world. So it is 
important we get these first ones right. And I would be 
optimistic about getting Japan in. And, from our perspective, 
dairy has to be one of those items in, not just because we are 
in the industry. We think it is because it is also very 
important, as you look at the other countries that are 
involved, and how important dairy is to them. So that would be 
kind of my response.
    Chairman NUNES. Mr. McCan, can you answer the same 
question?
    Mr. MCCAN. Yes. I think that it is--you know, Japan needs 
to comply by the same rules that all the other TPP countries 
have to comply with. And, you know, we don't--I don't think we 
are at that point yet to where--in our negotiations where we--
they really tried to shift the weight towards us, which--I 
think Japan really wants to be part of this trade pact more 
than they are letting on. And so I think, you know, we just 
need to work through it. It may take more time, but it is 
important, as Andrei mentioned, that this is a 21st century 
type modern trade pact. Because, as we look forward towards 
TTIP and the European negotiations, we need to make sure that 
it is that type of a trade pact with tariff elimination.
    And the beef industry has certainly put pressure on Japan 
for the tariff elimination, and that is what we would look 
forward to.
    Chairman NUNES. Thank you, Mr. McCan. In the interest of 
time, I will go ahead and recognize the ranking member, Mr. 
Rangel.
    Mr. RANGEL. Thank you so much, Mr. Chairman. Do any of you, 
as exporters, see any sound economic or political reasons why 
we should continue the embargo against Cuba? Are there any 
reasons that you could suggest to guide the Congress as to what 
is in our best national security or economic interests?
    [No response.]
    Mr. RANGEL. Then I assume, by your silence, that all of you 
think that it would be sound trade policy for us to resume 
negotiation with Cuba, for the Cubans and for the United 
States, and let competition be an element where we can gain, as 
we would with any trade agreements.
    I hope that you don't find yourself being placed in a 
political position because of this, but we are talking about 
exports, we are talking about jobs, we are talking about 
improving our economy. And if there is no reason why we should 
not expand these exports, I think that, under American system, 
you have to be heard.
    The second question is that all of you agree that we should 
have--maintain a high quality of imports that come into the 
United States because, while you cannot expect each and every 
product, the reputation of our country in having high standards 
is something that has to be maintained. Have any of you ever 
thought about the issue as to whether or not the Congress 
provides enough resources to make certain that we can do this? 
Has that ever been an issue that you discuss? Anybody? Mr. 
Stewart.
    Mr. STEWART. Thank you, Congressman Rangel. The issue is 
that, for many industries that confront imports, where there 
are issues of quality there is a perception that the 
Administration does not have the resources to be able to ensure 
the safety of the product. Some of that flows from the change 
in patterns of trade that have occurred over the last decade or 
so, where we are dealing with a lot more developing countries, 
and developing countries have greater challenges, in terms of 
getting their standards up to what the U.S. requires. And some 
of it has to do with practices in certain countries where, 
whatever the agreement is as to the standard they should 
export, individual producers choose to go around that and ship 
product in that clearly is not suitable.
    When you take a look at the small percent of products that 
can be inspected at the border, the answer is that the security 
of the food supply system in the United States can be at risk. 
And so it is an important issue for Congress to consider, to be 
sure that we don't let ourselves get into that situation.
    Mr. RANGEL. Well, I am hoping that when you have your trade 
associations meetings, and you have your priorities, which we, 
as Americans, support because it is good for our great country, 
that you also put in there what you expect the Congress to do 
to maintain these standards, to help us to have less of a 
political problem, and more that is related to the expertise 
which you bring to the field, which--clearly, you have more 
than any of us.
    Lastly, you very strong about--say in Japan--that they 
maintain their international standards, that they don't protect 
just their products, in terms of our exports, and allow theirs 
to come in. Now, how would you expect the Congress to support 
the positions that we agree with? Most of you know that the 
Constitution gives this authority to the Congress, and nobody 
would want to have 535 negotiators with these countries. And 
so, therefore, we agree to give the trade promotion authority 
to the President.
    Now, when the bill finally comes to the Congress, it is 
just yes or no. In order to protect some of the things that you 
advocate, and we support, wouldn't you believe that we have to 
get that into the trade promotion authority, that what 
authority we give the President has to include the things that 
we are talking about in terms of fairness in trade?
    There is another way to do it, and that is just to give 
them authority to do whatever he wants to do. And after they 
negotiate, then we have to say, well, it doesn't help our dairy 
people, doesn't help our cattle people, and then we are left 
either swallowing the whole trade package, or rejecting it 
because of something that could be local. Have you discussed 
the trade promotion authority? I know you should be advocating 
that we give that authority to the President. Without doing it, 
our trade ambassador cannot adequate negotiate. Isn't that 
correct?
    How could he negotiate--if he is negotiating with people 
that have the authority to cut a deal, and we are sending an 
ambassador that can't cut the deal unless he comes back to the 
Congress, doesn't it make sense that he should have--the 
President should have some authority to close the deal and 
bring it back to us?
    [No response.]
    Mr. RANGEL. The answer is yes. Well, you better give some 
thought to it, because I can see that you haven't. And it is 
going to be a big political problem. We want to make certain 
that the President is able to authorize the negotiations of 
deals that are good for the American people in international 
trade.
    By the same token, it just doesn't make sense to have 
included or excluded from agreements the things that may cause 
us not to be able to support it. Some of them is labor 
standards, some is environmental issues. Some of it is just the 
quality of the products. But please help your congresspeople to 
resolve these problems and not leave it to us to seek a 
political solution to come and--problems that we have to 
resolve.
    Thank you, Mr. Chairman.
    Chairman NUNES. Thank you, Mr. Rangel. Mr. Reichert is 
recognized for five minutes.
    Mr. REICHERT. Thank you, Mr. Chairman, and thank you all 
for taking time to be here today. I am from Washington State, 
so I visit with my farmers, apple growers, cherries, heading 
into the wine--little bit of--I think we are second from 
California now, with the amount of wine we produce out of 
Washington State.
    So, you know, when I talk to my Washington farmers, they 
are pro-trade, obviously. Washington State is the most trade-
dependent state in the country. And they also recognize, 
though, that the way to get there is--and I am going to jump on 
Mr. Rangel's bandwagon and the chairman's bandwagon--and that 
is TPA.
    And I talked to some business folks yesterday, and 
explained the need for TPA and how important it is for us to 
proceed forward with TPP, and asked for their help. And I think 
that is what Mr. Rangel is saying today, too, is we need your 
help to convince others in Congress that TPA is a needed tool 
here to move forward with this trade agreement.
    And--but I am also interested in your testimony that you 
shared today about the benefits incurred from previous trade 
agreements, the benefits as it relates to jobs. And if we don't 
work hard to continue to increase American ag exports, what 
happens? What is the negative impact, Professor Hayes, if we 
don't continue to increase our ag imports, United States?
    Mr. HAYES. Our agricultural exports. If we----
    Mr. REICHERT. I am sorry, exports, yes.
    Mr. HAYES. Yes, yes. Argentina is a great example of how 
you can go wrong. Fifty years ago, it was the seventh 
wealthiest country in the world. Then it began to look for 
import substitution. It began to fight trade. It taxed exports. 
It tried to create domestic alternatives for imports. And it 
fell from number 7 to number 75 in wealth tables. And so it 
essentially created poverty.
    Singapore is an example of the other side. Average person 
in Singapore makes 20 percent more than the average American. 
And it is a complete free trade country; they even import their 
water. They have no resources, and they are a very wealthy 
country, based on the principle of free trade. Wealth is 
created when you move from surplus to deficit areas.
    Mr. REICHERT. So if TPP doesn't move forward, what do you 
see happening in the United States?
    Mr. HAYES. A stagnation. But, more importantly, other 
countries are concurrently negotiating free trade agreements. 
Europe has a negotiation with Japan. Canada, outside of TPP, 
has a negotiation with Japan. If we don't participate and keep 
up with those countries, they will form free trade agreements, 
and we will be left out.
    Mr. REICHERT. It is already happening, isn't it?
    Mr. HAYES. Yes, it is already happening.
    Mr. REICHERT. Yes, sir. Anyone else wish to comment?
    Mr. MCCAN. I would add that, in the free trade agreement 
that was negotiated recently, that the United States gained a 
pretty good advantage over our Australian friends because we 
were able to negotiate a quicker phase-in of tariff 
elimination. And so we are benefiting from a good advantage of 
being able to export bigger volumes of beef to Korea because of 
that. We got in there with a free trade agreement before the 
Australians did. They have ultimately got one now, but they are 
behind us because we have got a better tariff advantage to 
them. So we are able to get more volume there. So----
    Mr. REICHERT. That is a great point. And--yes, sir?
    Mr. MIKHALEVSKY. I thought I would just add, too, we were--
two subjects to address your questions.
    First, in terms of jobs, when a--there is $1 billion worth 
of exports generated out of the manufacturing sector. It 
generates about 5,500 jobs in the U.S. When you have $1 billion 
worth of agriculture products go, you generate about 6,800 
jobs. So, moving agriculture and moving more into agriculture 
exports actually does more for job creation, we believe, in the 
United States.
    Secondly, the power of free trade agreements. While, from 
my company's point of view, we are not satisfied with the South 
Korean free trade agreement due to exclusion of products, dairy 
actually gained nine share points just increasing exports of 
cheese, whey, and lactose after that agreement was signed. And 
that is share of imported products. So it actually has a real 
benefit, once you get these free trade agreements. And 
expanding exports and agriculture products also generates more 
jobs.
    Mr. REICHERT. Well, appreciate your testimony. And, 
remember, we do need your help. I yield back.
    Chairman NUNES. The gentleman from Massachusetts is 
recognized for five minutes.
    Mr. NEAL. Thank you, Mr. Chairman. Mr. McCan, you seem to 
indicate during your testimony that you had some inside 
knowledge as to the Japanese coming around on some of these 
issues. Do you perhaps have some perspective that you want to 
share with us on currency manipulation?
    Mr. MCCAN. It is just my personal opinion that----
    Chairman NUNES. Mr. McCan, your mike is not on.
    Mr. MCCAN. I think it is just my personal observation. I 
think they would like to try to shift the weight to us that we 
really need them in here, whereas I really feel that Japan, you 
know, wants to be part of this trade pact pretty badly. They 
were a latecomer into the negotiations, and I think they are--
they really want it worse than what they are letting on to us.
    But, you know, I think eventually we will get there with 
them, but I don't have any particular intelligence that I could 
base that on.
    Mr. NEAL. Okay. And perhaps--Mr. Stewart, would you expound 
on the whole notion of currency manipulation and remind us 
again of why it is such a barrier?
    Mr. STEWART. Thank you, Congressman. You know, if you--
well, it has primarily arisen from industrial users such as the 
auto sector vis a vis Japan. We have had problems with 
misaligned currencies that are driven by government policies 
for several decades with countries in Asia, Japan being one of 
the major ones, Korea being another. And, obviously, China is 
the one that has received most of the attention.
    And it is--if you think about liberalizing trade and 
reducing tariffs, if you permit a false exchange rate, you 
basically create a new tariff, which, in many ways, is often 
higher than the average tariff that is being eliminated. So it 
is a question of whether you are really liberalizing trade or 
not. And currency manipulation, when it occurs, can drive a 
dramatic false competitive advantage.
    Mr. NEAL. As you know, the President has set out a pretty 
assertive and a pretty aggressive trade agenda, and he has been 
able to, I think, highlight some pretty encouraging statistical 
data, as well. But there are, as it relates to Asia and the 
Pacific, there are a number of very stubborn problems, as we go 
forward. And we are going to have to wait and see how they are 
best resolved. But I think it is fair to say that, whether it 
is beef, or whether it is currency manipulation, there is a 
ways to go on all of this. Thank you, Mr. Chairman.
    Chairman NUNES. The gentleman yields back. Mr. Buchanan is 
recognized for five minutes.
    Mr. BUCHANAN. Thank you, Mr. Chairman. I want to thank all 
our panelists. As one of my colleagues mentioned from a 
different state, I am from Florida, and I can just tell you, 
over the last four or five years, where it has been difficult 
construction and tourism is up, but it was also impaired to 
some extent. Agriculture kind of carried along the state. It is 
a gigantic industry in our state. So I appreciate the 
opportunity to visit with everybody here today.
    Let me mention, Mr. Stewart--I want to start off with you--
I just got back about 30 days--or it seems like 30 days or 
maybe 60 days ago--one of the largest delegations, Democrats 
and Republicans, we went to Tokyo. We are talking about China 
and the Japanese, but all of us--a lot of us were concerned. I 
think we had 13 Democrats, 7 Republicans, so we had a large 
delegation, I think the largest in 30 years.
    But everybody--and some of my colleagues have brought up 
about the whole thing of the--we spent a lot of time on TPP. 
But the thought was--is that, you know, the idea is a lot of 
them were for the free trade agreement, but they want to make 
sure it is fair.
    And one of the things they bring up as it relates to these 
industries, even if you get an agreement--and I can tell you, 
the prime minister, we had a chance to meet with him, he seems 
like he would like to move, you know, clearly, in this 
direction--but as we look to the ag industry and we talk about 
Japan, the thought was, by some of the Members, is that when 
you look to the auto industry, we have somewhat of a free trade 
agreement, but they have 30 percent of the marketplace here in 
the U.S., or whatever that number is--and I am in the car 
business, so I will say that--but the other side is we had less 
than one percent there.
    So, even if you get the trade agreement, and you get a 
point where it looks like it is fairly fair, the question is, 
does it work both ways, and why hasn't it worked that way in 
the auto industry. But that was one of the concerns they 
brought forward, and it is a concern I have, as well. So I will 
boot it to you.
    Mr. STEWART. Well, I think that that is a very valid 
concern with certain of our trading partners, where it is not--
for Japan it has not been an issue of what the tariff levels 
are, although in agriculture they can be extraordinary. My 
recollection is that the end of the Uruguay round they had a 
deal on rice where they could charge 600 percent duties and 
have a 400 percent minimum markup, and they still wouldn't let 
any rice in the country, even it could come in and compete at 
those prices.
    But in industrial goods, and I think in agriculture, if a 
country is not, in fact, committed to opening its market, there 
are lots of ways to do that, and you will spend your time in 
disputes, trying to go step by step. But we have had the same 
problem with Europe on beef. I mean how long ago was the beef 
case? It was back in the 1980s, as I recall. And we are 25 
years later, and we have had a little bit of progress, but 
hardly the kind of progress that the----
    Mr. BUCHANAN. I think the mindset--let me just say this, 
because we are limited time--is that a lot of us are free 
trade. But at the end of the day, my idea of negotiation--I 
have been in business 40 years--at the end of the day, in 6 
months, a year, 5 years, it has got to be somewhat a win-win.
    Mr. STEWART. That is right.
    Mr. BUCHANAN. And that is the attitude I take to it, 
because I want to fight for our industries. I want to--and I 
think if we do, we got a good chance to win.
    Dr. Hayes, let me just mention just quickly, you had 
mentioned that these trade agreements would transform our 
exports. Could you expand on that a little bit, what you mean 
by that?
    Mr. HAYES. Sure. As I indicated, most of what we export now 
without duty are raw materials, such as corn and soybeans. The 
duties that are in place against our products are typically 
against value-added products like pork or milk or beef. And so 
it is as if those countries are artificially located value-
added industries in their own countries. And, with free trade, 
those industries would naturally migrate back to the U.S. 
because it is far more efficient to move the final product than 
it is to move the bulkier raw material.
    But to put this in an example, free trade with China, we 
could double or triple some of our livestock industries just to 
access--just because of the potential demand out of that 
market.
    Mr. BUCHANAN. Thank you. And I am going to go with Andrei. 
The--you had mentioned about tariffs being 250, 300 percent. 
That is unbelievable to me. I mean maybe it is something I 
should know about, but why is it so high?
    Mr. MIKHALEVSKY. I think generally, for Canada and for 
Japan, they are protecting their internal dairy industry. But 
it also has the added detriment to the people in those 
countries that they are paying an awful lot for the dairy 
products that they have. And if you look at the price of dairy 
products in Canada, it is much higher than you might find in 
the United States.
    Similarly, I believe Japan probably has the highest priced 
dairy products on shelf for their consumers of anywhere in the 
world. So it is really, I believe, just protectionism of the 
local industries. And I think that is pretty much the simple 
answer.
    Although there are areas--for example, China--where the 
duty is around 10 percent on dairy products. But their 
countries get an advantage of five percent for a product. And 
that puts us on an unlevel playing field. And that is why it is 
so important we have a level playing field as we look out 
around the world.
    Mr. BUCHANAN. Yes. And let me just say, Mr. McCan, in terms 
of the beef industry, you know, I have eaten a lot of meat 
around the world, been in 60, 70 countries. We have got the 
best beef in the world. And the bottom line, you know, what 
more can we do, or should we do, to help get our exports, as it 
relates to your industry out there? Because, obviously, you 
know, you are getting blocked in a lot of different directions. 
But is there a couple of things that we could do to make a big 
difference on it? Because I think that is an industry that has 
enormous opportunity, worldwide.
    Mr. MCCAN. Well, I think, from the beef industry 
standpoint, you know, we adding about $300 a head to every 
animal, fed animal, harvested right now that is due to our 
international export market. So it is significant, what that 
trade does for our industry. And, you know, I think what--all 
we would ask is that, you know, we try to get all these trade 
pacts back to sound science negotiations, and non-tariff-type 
trade barriers, and it would help tremendously. It really adds 
a lot.
    In 2013 we exported $6.1 billion worth of beef, 
internationally. And it was pretty much all due to a lot of the 
trade pacts of the past. However, as Andrei mentioned, we have 
a very high tariff in Japan. We exported $1.4 billion worth of 
beef in Japan in 2013. They love our beef. It is the highest 
quality, we feel like, in the world. And so they want it. And 
if we could remove that tariff, it would mean a lot for our 
producers and for our market, certainly.
    Mr. BUCHANAN. Thank you and I yield back.
    Chairman NUNES. Thank you. Thank the gentleman. Mr. Smith 
is recognized for five minutes.
    Mr. SMITH. Thank you, Mr. Chairman. Thank you to our 
witnesses today.
    Dr. Hayes, if you could, touch a little bit more on the 
impact to consumers, foreign consumers, for example. You 
mentioned a little bit about how wealth is created when you 
move away from a surplus. And also, how protectionism--and then 
I think we heard also how the price of dairy to consumers with 
protectionism is much higher. Could you elaborate more on that?
    Mr. HAYES. Sure. I will give you an example. In Colombia 
they have almost no feed grains, and so, therefore, pork 
production is extremely expensive. And people in Colombia can 
literally not afford to eat pork. However, we now have a free 
trade agreement with them. And their per capita pork 
consumption is skyrocketing. They literally have access to 
something they didn't have before.
    I have been in supermarkets in Korea and seen pork selling 
at four or five times the U.S. price. When those consumers 
eventually get access to our product, they will benefit from 
having a much more affordable product. And, in that sense, 
their wealth grows.
    Mr. SMITH. Is--are there any examples of where consumers--
perhaps in Japan, because Japan is such a central point of 
discussion here this morning, with protectionism--do Japanese 
consumers benefit from any of their protectionism? Can anyone 
point to such a thing?
    Mr. HAYES. I will take a stab at it. They believe that they 
have food self-security because of protectionism. But, as I 
mentioned, they are importing all their animal feed, so it 
doesn't make a lot of sense.
    Mr. SMITH. Anyone else? Mr. Stewart.
    Mr. MIKHALEVSKY. Yes. I would just say that they import a 
tremendous amount, as Dr. Hayes said, import a tremendous 
amount of their product. And there is a very small percentage 
of the population that are actually ag producers there. So it 
is--and it is a--they are very protectionist.
    Mr. SMITH. Mr. Stewart.
    Mr. STEWART. Just address the food security issue, because 
it has been a big issue in Japan and in a number of other 
countries.
    If you go back to 2007, 2008, grain prices, rice prices 
went up 200, 300, 400 percent because there ended up being a 
few shortages. And I think it was 35 or 40 countries imposed 
export restraints on key agricultural products, including rice, 
including wheat, including a number of other products.
    If you are an import-dependent country like Japan, right 
now the international trading system doesn't guarantee them 
access to food supplies. Every country has a right to restrict 
exports if they perceive it to be in their national interests. 
That is a legitimate issue. Whether it drives the high tariffs 
and other things, I would say probably not. That is large 
political. But that is an issue that the overall trading system 
has not addressed.
    Mr. SMITH. Okay. All right. I thank you, Mr. Chairman. I 
yield back.
    Chairman NUNES. I thank the gentleman. The gentleman from 
Oregon is recognized for five minutes.
    Mr. BLUMENAUER. Thank you, Mr. Chairman. I would like to 
just continue the discussion dealing with Japan. I am wondering 
if we are going to reach a point where the Japanese political 
system, or their philosophy regarding trade negotiations, just 
makes it no longer reasonable for us to pursue. Or do we reach 
a point where we just decide that it is not worth it to fight 
to keep Japan in the agreement?
    Mr. MCCAN. I would just say I don't think we are at that 
point yet, Mr. Congressman. I hope. I think, from our industry, 
we certainly view Japan as an important part of this 
negotiation. And we just remain confident that we--in the 
future we will be able to bring them on board at the level of 
all the other TPP countries.
    Mr. BLUMENAUER. Mr. Turner.
    Mr. TURNER. Yes, I would just say that the framework of the 
TPP itself is supposed to be a living treaty, you know, to grow 
and to adapt. And I think to--not to fight through those issues 
with Japan now--Japan gives the TPP much more credibility with 
the size being added to it, and it is important.
    And I just relate to a lot of my packers and suppliers. You 
either ship to Japan or you don't. There is no middle ground. 
Because you have to do certain things, you have to work through 
it. But, at the end of the day, good business opportunities, 
and a big market, and I think it should be included--at least 
fought for.
    Mr. BLUMENAUER. Well, certainly that is the philosophy with 
which we have pursued it. And, all things being equal, we are 
all better off in a comprehensive agreement that speaks to some 
of the problems that you are alluding to.
    But I just wonder--and perhaps, just in terms of making the 
negotiations work better, if it is clear that there is a point 
where we do pull the plug, where we are just not going to 
continue down this path, that we will reach a point, if we 
can't reach reasonable accord on things that give our producers 
access, and we are not facing pretty grotesque barriers, that 
it is clear that we are not going to play.
    I must admit I was blown away recently in conversation with 
some Japanese officials about their expectations dealing with 
fisheries. Pretty unsettling, in terms of what their plans 
were, and some of their practices that are going to pose a 
challenge for us, I think, in reaching an agreement that is 
acceptable for most of us. And I am just curious at your 
reflections. Appreciate your feedback. Thank you.
    Thank you, Mr. Chairman.
    Chairman NUNES. The gentleman yields back. The gentlelady 
from Kansas, Ms. Jenkins, recognized for five minutes.
    Ms. JENKINS. Thank you, Mr. Chairman, and thank you all on 
the panel for being here today. I represent eastern Kansas, and 
I have seen firsthand how strong trade agreements open 
international markets to Kansas beef, pork, Kansas wheat and 
cereal grains, as well as planes and other products 
manufactured in Kansas.
    I also know that the best way for Congress to ensure that 
we can get strong agreements that include congressional 
priorities is to pass legislation like the bipartisan 
Congressional Trade Priorities Act that Chairman Camp has 
introduced, along with our chairman and Chairman Sessions. And 
it is my hope that we can get that important legislation 
through the House and the Senate this summer.
    Mr. McCan, as president of the National Cattlemen's Beef 
Association, you are well aware that the World Organization for 
Animal Health places U.S. beef at its lowest possible risk 
category. Unfortunately, some countries, including some of 
those who are currently participating in the Trans-Pacific 
Partnership negotiations, continue to either ban or limit U.S. 
beef exports.
    So, Mr. McCan, could you please discuss the markets that 
are still closed to U.S. beef and pork, and the impact this has 
on U.S. producers? I would also like you to discuss the 
challenges that the mandatory country-of-origin labeling, or 
COOL standards, created by the USDA plays on our negotiators 
when they try to get other countries to end non-tariff based 
barriers.
    I specifically mention COOL because, over the past couple 
of years, I have heard from many Kansas producers that these 
standards are placing an unworkable burden on their operations. 
In addition, a study done back in November of 2012 by 
Professors Glynn Tonsor, Ted Schroeder, Michael Taylor from 
Kansas State University, and Jayson Lusk of Oklahoma State 
University found that U.S. consumers are not willing to pay a 
premium for labels that distinguish between livestock born in 
Canada but raised in Montana and those born and raised anywhere 
else in the U.S. So it appears that these standards may be more 
trouble than they are worth. Could you comment?
    Mr. MCCAN. Yes, ma'am. I will answer your concerns about 
the BSE status first. We are a negligible risk status country 
now, which is the lowest status you can be for BSE. And there 
are other countries who are exporting beef that don't have as 
low a status for BSE than we do that are exporting beef to 
China. China we view as a really huge future market for us. We 
were locked out of China in 2003 with the BSE cattle from 
Canada, and we have not been able to get access back into 
China.
    So, we certainly view that as something that we need to--
our Administration, I think, needs to work hard on. And our 
industry views that as a very important market. And we don't 
see any reason why we should be kept out at this point.
    As to the country--mandatory country-of-origin labeling, it 
has--in our opinion, in the beef industry, we--it has not 
really benefited anyone. Referring to the study that you 
referred to done at Kansas State and other universities, our 
domestic consumers really don't seem to really care, really pay 
a lot of attention to that origin label. So it has certainly 
not shown any economic benefit to any of our producers in the 
United States, although it has been a really tough rule to 
comply with.
    And we handle Mexican steers on our family's operation. And 
so, every year, when we market them, we are faced with anywhere 
from a $35 to a $50 a head discount for no apparent reason. And 
when those cattle come in to this country, they are lightweight 
calves, usually. And it is an added value type of a program. We 
add value at the ranch level, the feed lot operators add value, 
the packers add value. By the time those animals are processed 
and ready for distribution in the retail markets, the majority 
of the value of that animal is value that has been put on them 
here in this country.
    So, another reason why we don't see any real benefit to the 
mandatory country-of-origin labeling rule right now. And I--and 
it has caused some serious disruption on the borders, south and 
north. There are some processing facilities that have recently 
gone out of business that depend on a lot of that border trade, 
and because of mandatory COOL have been hurt and had to go out 
of business.
    So, we have limited infrastructure now across the country 
for processing cattle. We want to protect that infrastructure 
as much as we can to keep a good, robust competition in our 
industry.
    Ms. JENKINS. Thank you, Mr. Chairman. I would yield back.
    Chairman NUNES. Thank the gentlelady. The gentleman from 
Louisiana is recognized for minutes.
    Mr. BOUSTANY. Thank you, Mr. Chairman. And I thank all the 
witnesses for their testimony. My home state of Louisiana is a 
maritime state, highly dependent on trade. And agricultural 
exports are the top--our top export item. Rice is very 
important in my district, and getting a high level agreement 
that opens up markets for rice and some of our other 
agricultural commodities is of major importance to me.
    But I would submit that, even with all the work done on TPP 
and TTIP, the negotiations, very difficult negotiations, much 
more needs to be done. And these are much more than commercial 
agreements. They are not static. This is the way we get back to 
a rules-based trading system. And I will tell you. American 
leadership is in demand more so than ever before to get this 
done. And the first step, I think, that is critical in exerting 
this American leadership in this engagement is to get trade 
promotion authority.
    Now, we have a bill, the Bipartisan Congressional Trade 
Priorities Act of 2014. It was introduced on January 9th. A lot 
of work was put into that. It is much more--it is a much more-
evolved piece of legislation than the previous TPA. And I 
believe it addresses all the 21st century issues, from SPS to, 
you know, the global digital economy, state-owned enterprises. 
It also enhances the consultative role of Congress as it 
engages with the executive branch and USTR.
    So, my question to all of you is--I want each of you to 
answer this for the record. Do you believe that our negotiators 
can get the best possible deal, which I believe is essential, 
the best possible deal in these negotiations, if we don't have 
trade promotion authority, and specifically, this legislation 
we have before us?
    Why don't we start with Dr. Hayes?
    Mr. HAYES. Common sense suggests that you don't give your 
best deal until the very last minute. And you can't do that 
under the current situation. Because without trade promotion 
authority, there is always the possibility we will go back and 
reopen the deal. So I absolutely agree with you.
    Mr. BOUSTANY. And would you agree that time is slipping by? 
There are a lot of external events going on, both politically 
and economically?
    Mr. HAYES. Yes, just----
    Mr. BOUSTANY. That is why we need to have a sense of 
urgency?
    Mr. HAYES. Absolutely. Just looking at the congressional 
timeline and the U.S. election process, this is a very critical 
moment.
    Mr. BOUSTANY. Thank you. Mr. McCan.
    Mr. MCCAN. I would concur that I think the trade promotion 
authority is critical in being able to get these negotiations 
done in a timely manner, and get the right trade pact that we 
are looking for, and a good, modern, 21st century-type trade 
pact. I think we need to give the Administration all of the 
latitude that we can, and the agencies that they have at their 
disposal.
    Mr. BOUSTANY. Thank you. Yes, sir?
    Mr. MIKHALEVSKY. Thank you. Two comments. First, as I said 
in my comments, we are highly supportive of the trade promotion 
authority. Right on board, we believe that it is essential to 
make this thing go forward, and so we are right on with that.
    The second Part I wanted to answer a little bit 
differently, and I just wanted to talk about time running out, 
and the sense of urgency. From a dairy industry perspective, 
the EU has caps on dairy products today that go off in 2014 and 
2015. Those products--there is a significant amount of product 
that is going to flood into the world market at that point in 
time. So it is really important that we tie these things up 
very quickly. Otherwise, we will be at a competitive 
disadvantage in the dairy industry in the future.
    Mr. BOUSTANY. Thank you. Mr. Turner.
    Mr. TURNER. I agree that trade promotion authority is not 
only urgent, but required. The sooner, the better.
    Mr. BOUSTANY. Thank you. Mr. Stewart.
    Mr. STEWART. Thank you, Congressman. I will be--take a 
contrarian view, simply because I am a bit of a historian. We 
didn't have TPA before 1974, and we managed to do lots of trade 
agreements. I am not opposed to TPA, and the bill that was 
introduced is a good start. And for some trading partners it 
may be a help. But I don't actually believe that it is critical 
to have before you have a deal.
    Most of the trading partners we deal with have a process 
that is not a lot different than ours. And, theoretically, the 
deals could be taken back and reopened. And they don't do TPA, 
we are the only country that does. So, I am in favor of TPA, 
but I don't view it as a critical element, legally or 
historically.
    Mr. BOUSTANY. I would just simply submit that history is a 
nice guide, but we are in a much more complex negotiating 
environment with many very difficult 21st century issues. And I 
do believe that the full weight of the U.S. Government needs to 
be exerted in these negotiations. And if we get bipartisan 
trade promotion authority, that sends a very powerful signal to 
all of our negotiating partners that we mean business. It is 
essential to get the best possible deal.
    And, with that, I will yield back, Mr. Chairman, thank you.
    Chairman NUNES. Thank you, Dr. Boustany. The gentleman from 
Wisconsin, Mr. Kind, is recognized for five minutes.
    Mr. KIND. Thank you, Mr. Chairman. I want to thank the 
panelists for your testimony today. Obviously, being from 
Wisconsin, agriculture is a very important part of our state's 
economy. Dairy, in particular, second in the nation when it 
comes to dairy exports.
    And I would agree with my friend from Louisiana, Dr. 
Boustany. I would have preferred to see TPA dealt with sooner, 
rather than later. Obviously, I am concerned that we are not 
going to get the last best offer from those in TPP, unless they 
have some assurance that the President can ultimately deliver 
the agreement at the end of the day, and trying to negotiate 
with 535 independent Members of Congress is going to make that 
a little bit dicey.
    But let me also paint a little political scenario which 
would make TPA passage eventually very difficult in this 
Congress. I think the political reality is we are not going to 
be able to move it before the elections. If there is a flip in 
the Senate, if there is any backing away from the May 10th 
agreement, which was embraced by the previous Bush 
Administration, involving core international labor and 
environmental standards and access to prescription medicine in 
the developing world, it is going to make getting the votes for 
TPA very, very difficult in this place. And so, I think the 
November elections are going to be very important to where the 
trade agenda goes in the future.
    We have also--I have also done a lot of outreach with our 
TPP negotiating partners. I have had meetings, breakfast and 
lunch meetings, with the TPP ambassadors, including the 
Japanese ambassador. It would be weird, to say the least, if we 
moved forward on TPP without Japan being there at the end of 
the day.
    And my impression, Mr. McCan--I think I agree with you--a 
little more optimistic. I think all the nations involved in 
negotiations want to get to yes, they want to get to an 
agreement. But, naturally, all eyes are on Japan right now. I 
would like to be able to support a good negotiated agreement, 
but I have a hard time supporting a bad agreement. I think a 
lot of Members in this place probably feel the same way. And 
agricultural access to these markets is going to play a crucial 
role in where this agreement ultimately ends up. And we all 
know that there is more work to be done.
    But let's face it. We have got work to do in our own 
Congress when it comes to our own agriculture policy to be good 
stewards of the global trading system. So I have been so active 
in the past on farm bill debates, trying to move us away from 
these market and trade-distorting commodity subsidy programs 
that tend to get us into trouble, globally.
    Probably the most salient one that we are dealing with 
right now is the box we are in with Brazil and our domestic 
cotton subsidy program, and the WTO implications of that. I 
understand this week there are important negotiations to see if 
we can resolve this with Brazil. They are convinced that this 
Congress did not fix it--neither am I--in the last farm bill. 
And, because of that, we have been, in effect, bribing Brazil 
with $150 million worth of payments that now go to subsidize 
Brazil cotton farmers. It just shows you how crazy this farm 
bill has gotten in this country.
    And we have a responsibility to be living up to some of our 
trade obligations and the challenges that we face in the WTO on 
the front end, as well. So I am hoping that, as we continue 
talking about our own agricultural reform programs, that trade 
and the implications of trade are considered a little more 
deeply in it, rather than kind of shoulders being shrugged, and 
we taking our chances through WTO claims and cases. That puts 
us in a bad spot.
    Mr. Turner, you came and talked about SPS and that, too, is 
kind of a new phenomenon that we have in our trade agreements, 
and certainly with the trade promotion authority legislation 
that was introduced earlier. Is there any concern on your part 
in regards to the standards used for SPS--because it is a two-
way street--that they might ultimately be used against us or 
our products?
    Or do you see the way it is being negotiated and the 
language that is being used right now is going to create a 
livable world for us when it comes to some of the nuances of 
SPS and some of the non-tariff barriers that we face, 
especially for agriculture in recent years?
    Mr. TURNER. Everything I have seen so far, I mean, looks 
good. You know the two-edged sword. As a farmer I used to 
struggle with the stringent requirements that we had growing 
our food with both federal standards and state standards and 
everything else in California. But now, as an exporter, and 
someone who spends time traveling the world, I have a great 
appreciation for the reputation that we have built globally, 
based on our high standards. And so I do think it is very 
important.
    You know, we have to respect foreign countries' standards, 
and the reasons why they want to do things the way they want to 
do them. And they have a right to protect the food in the best 
way that they seek. However, at the end of the day, 
transparency, and if it is based on science, I think we can all 
agree with that.
    Mr. KIND. I think it really comes back to whether it is 
science-based research that we can agree to, as far as the 
equivalency standards and what not. That will be crucial, 
moving forward.
    Mr. Mikhalevsky, obviously we would like to be able to work 
with you a little bit more about how we can take advantage of 
some of the greater export opportunities in the dairy market 
that exist in the Pacific Rim, China, right now. One of the--I 
think the tragedies of Russia and Crimea was we had talks in 
regards to Russia with dairy that suddenly collapsed overnight. 
We have been shut out since 2010. Hopefully there will be an 
avenue to try to revive them when things start settling down 
again over there.
    Thank you, Mr. Chairman. I yield back.
    Chairman NUNES. Thank you, Mr. Kind. Mr. Paulsen is 
recognized for five minutes.
    Mr. PAULSEN. Thank you, Mr. Chairman. And this is a topic 
that is important to my home state of Minnesota, as well. And 
while I don't have a district that is necessarily agriculture-
oriented, there is no doubt that Minnesota is an 
agriculturally-oriented state. In fact, Minnesota is the fourth 
largest agriculture exporting state in the country.
    In 2012, our agriculture exports totaled about $8.2 
billion. That was a 14 percent increase over the year before, 
which is a pretty common pattern, I am thinking, from--based on 
some of the testimony we have had here, and what I have read, 
and has happened in other states. And so the agriculture and 
food industry accounts for more Minnesota exports, actually, 
than any other industry in our state. More than double, 
actually, than the next closest industry, which is machinery. 
So, we are absolutely helping feed the world, much as you and 
the folks that you represent are. And so it is absolutely vital 
to our economy.
    I just want to associate my comments about the importance 
of getting TPA authority so we can get the best-negotiated 
deals possible that will benefit American consumers and 
American exporters. And I just want to thank you for your 
testimony, for your help, for asserting that relevance of 
having trade promotion authority. It is actually really, really 
critical.
    And, of course, as you mention, we are not just dealing 
about tariffs, which are issues, though. It is also these non-
tariff barriers and the opportunity to think about 21st century 
trade agreements, modernizing high-standard agreements so that 
other countries will then follow our lead. Right?
    And the United States has definitely gotten back into the 
game with the passage of the recent agreements that occurred 
with Korea, and Colombia, and Panama. And so, we are back on 
the playing field. But we need to push forward with these huge 
opportunities with both the Trans-Pacific Partnership and the 
TTIP.
    Let me do this. I just want to ask a question real quick, 
because it is not just, as we mentioned, tariffs, it is non-
tariff barriers. But, Mr. Turner, I was interested in your 
testimony. You are directly involved in getting agriculture 
products through this myriad of administrative and regulatory 
hurdles to get those products into foreign markets. You deal 
with that every day for your customers.
    Can you describe a little bit just your experience in 
dealing with countries that have multiple entry requirements, 
and the lack of harmonization of customs procedures between 
countries, and the opportunity that we should be looking at 
with these agreements in trade?
    Mr. TURNER. Yes. Are you looking for a specific example, or 
just kind of talk about----
    Mr. PAULSEN. Yes, anecdotal stories. I mean give some 
perspective of why this is important, and why this is something 
that we should address, or help address, that can benefit us in 
the United States.
    Mr. TURNER. Yes. You know, there--when you look at the SPS 
issues in particular, there are just so many different things 
to get products from one place to another. And we look at--you 
know, the easy part, when we talk about the businesses doing 
the commodity trade and doing the sale, and then we have to, 
you know, then send that through the office and the conference 
room, where the ladies do the real work, and deal with all the 
different layers and all the different things. And it is just--
every single country is different, you know.
    We have import permits required in some places. Import 
permits are very, very challenging. We have products that need 
to get shipped out, but we can't ship the product until it has 
been labeled properly with an import permit number. We face 
that mostly in India. Fumigation requirements are different. 
Biggest challenge is Chilean fumigation. Chilean fumigation has 
to--is a--even the packers themselves have to weave a fine 
little line to be able to accomplish what needs to be 
accomplished to get into Chile with still being legal in the 
U.S. It just goes on and on and on.
    Mr. PAULSEN. Let me just follow up on your comment about 
India, because U.S. agriculture exports to India are actually 
really small, or paltry, with a mere $863 million in 2013, and 
it has gone up a little bit in 2012. But you think about India, 
it should be a booming market of opportunity, right? Growing 
middle class, rapidly growing population becoming wealthier.
    Can all of you maybe just comment and just follow up on 
that regarding what are some of the barriers to agriculture 
that we see right now with--dealing with India? Maybe Mr. 
McCan? Or you can go right down the line.
    Mr. MCCAN. I am not terribly familiar with all of those 
issues, but I know that, because of their--because of the--
their feeling towards bovines in that country--and I am not 
sure how it really relates to beef consumption--that there is 
just not a huge interest to negotiate with the beef industry 
for importing much of our product.
    They also have a huge population of water buffalos, which 
they export. And they don't put on the same equivalency as a 
bovine animal over there. So there is lots of kind of cultural 
issues there that seem to complicate the trade over there. And, 
yes, we haven't had much opportunity there at all.
    Mr. PAULSEN. Mr. Mikhalevsky, on the dairy side, can you 
speak to that just a little bit?
    Mr. MIKHALEVSKY. Sure. The--one of the issues that we have 
when we ship to countries--and I will primarily speak about 
India in a second--is we are actually testing for 933 separate 
substances today in order to meet different export 
requirements, which creates a lot of cost in our system. But 
there is a number of things that you test for that are related 
to food safety, and then there are other things that you test 
for that are related to food quality and perception of quality. 
And, for us, the food safety one is essential. The food quality 
one is a matter of judgement.
    When it comes to India specifically, they do have a 
wonderful market there. They have tariffs there. They do give 
tariff holidays occasionally when they need product to come 
into the market. But we have generally had problem with the SPS 
standards there. One example of that would be testing for 
things like Para tuberculosis in milk and that. There are a 
number of standards that they impose that are more food quality 
standards, as opposed to food safety.
    And so, the way I would respond is it is a closed market to 
us and many of the other dairy exporters around the world, and 
it is a wonderful opportunity.
    The last piece on dairy, which might be interesting, is 
dairy in India is different than dairy here. We assume that our 
dairy comes from cows. Over there it may come from buffalo or 
other sources.
    Mr. PAULSEN. Thank you, Mr. Chairman. Yield back.
    Chairman NUNES. I thank the gentleman. The gentleman from 
Pennsylvania is recognized for five minutes.
    Mr. KELLY. I thank the chairman, and thank you all for 
being here. I am greatly interested in this. I come out of the 
automobile industry--in fact, the retail end of it. We do a lot 
of bid work. But as we would go through the bid process, there 
were--sometimes the bid specs were set up so that no matter 
what the final price was, I couldn't have met the specs.
    And I am looking at each of you. You are producers. So, 
first of all, you better have a product that everybody wants to 
own. Right? And then you better be able to put it at a price 
point that is affordable. And we are looking now at--talking 
with you about these trade agreements. One of the things for me 
that was very important, if I was sitting across from a 
perspective owner I had to have the decision-maker at the 
table. Or none of the negotiations mattered. It was just 
chatter.
    And the other thing was time was always of the essence, 
because I would know that if I wasn't able to satisfy a need at 
that time, or fill a need at that time, this person is probably 
going to leave our dealership and go someplace else. And the 
next day there would be an automobile in their driveway with 
somebody else's name on the back of it, which really didn't 
help me, because I still had payrolls to meet.
    I think sometimes we get really involved in these things as 
to what it is that we're trying to do.
    So, American products, globally. Globally. And did I read 
there somewhere--one of you say that the consumers, as a 
percentage, consumers--outside of the United States, how big is 
the market?
    Mr. MCCAN. I would just tell you for the beef market we 
consider that 96 percent of our product's consumers are outside 
of this country.
    Mr. KELLY. So out of 10 buyers, 9.6 of them are not here. 
You are trying to fill a market that is someplace else.
    Mr. MCCAN. Ninety-six percent.
    Mr. KELLY. Ninety-six percent. Well, okay. But my whole 
point is your market is not just the United States. And you are 
producing not just for the United States, because there is no 
way in heck we could digest the product that you are producing. 
There is an overcapacity, which we have watched in the 
automobile industry with some of the domestics. You can't 
overproduce for a market that isn't there. And if you do, you 
better look at the market that is available, and then produce 
for that and get your share of it. You are all looking for your 
share of the market. Is that not true? And all you are asking 
for is to be treated fairly, and not to get gamed.
    So, my question is, when we go into these other places, and 
we are trying to drive these trade negotiations--and I am with 
Dr. Boustany, because I do believe time is of the essence. And 
if we think we can sit back and the world will wait for us to 
come around, I guarantee you somebody will put a product in 
somebody else's driveway, and we will never get a chance to get 
back in that home again.
    So this TPA, a lot of question about that back home. In 
Pennsylvania ag is the number-one business. There is a lack of 
confidence, or a lack of trust that it is going to be handled 
the right way. I have people tell me, ``No, you guys better 
keep track of that. You better not let him do something that 
really hurts us. Okay?'' Now, whether you agree with the 
President or don't agree with the President, there is a real 
perception out there that we have a problem in negotiations.
    You are all here for a very particular reason. And I like 
what Mr. Rangel said. You have got to help congresspeople 
understand what is going on. But, more importantly, we have got 
to help the American people to understand what it is we are 
trying to get to. Don't we?
    I mean if we don't get a bigger share of this global 
economy, we won't have a dynamic and robust economy. We will 
not have jobs. We will not have the ability to fuel all these 
wonderful programs we have, because they are all revenue-
driven. Tell us. What would be the best way right now? Because 
I know you are all looking for something.
    Mr. McCan, you are in beef. Mr. Turner, you are in almonds. 
Andrei, you are with the dairy products. Mr. Stewart, you have 
been on both sides of it, right? Mr. Hayes, just tell us, 
please, because I think it is critical that the American people 
understand where it is we are trying to get.
    And I got to tell you, from my perspective, I wanted to be 
in everybody's driveway every day. I didn't want to get there 
from time to time. But I didn't want to get gamed, either, by 
the process. How badly gamed are we right now, in order to get 
our products around the world? If 96 percent of the market is 
outside our shores, then that is the target we have got to 
shoot for.
    What else can we do, gentlemen?
    Mr. MCCAN. Well, I will take a stab at it, Mr. Congressman. 
But, you know, we view trade promotion authority as very 
critical in the negotiations. The Administration----
    Mr. KELLY. But tell me why. Why is it important?
    Mr. MCCAN. Well----
    Mr. KELLY. Because the American people need to know why----
    Mr. MCCAN. My personal view, the President has his 
different agencies, the USTR, USDA, FAS, they are all very 
critical in these negotiations and these trade pacts. And, you 
know, without TPA, I view it that they are somewhat weakened if 
they don't have that strength of the TPA authority. And those 
are the people that are at the table on these things, more so 
than anybody.
    Mr. KELLY. Decision-makers are at the table.
    Mr. MCCAN. Exactly.
    Mr. KELLY. The people who are going to say yes or no are at 
the table.
    Mr. MCCAN. Exactly.
    Mr. KELLY. So if we are going to negotiation, but the 
person or the entity that needs to be there to go ahead and 
compete head to head doesn't have that same authority----
    Mr. MCCAN. They have the expertise for these negotiations, 
whether it is technical, you know, non-tariff stuff, SPS, they 
have the expertise within these agencies, and those agencies 
are part of this Administration.
    Mr. KELLY. Okay. Any of you? I know you are all facing a 
difficult challenge. Tell us--and not so much Congress, but the 
American people--about the market and how we have to go about 
getting a bigger market share. Because, at the end of the day, 
it is good for America. And our products, I don't think it is a 
matter of not having the right product, it is just not having 
the right policies. At least that seems to me--and the other 
thing is time. We cannot continue to let this time slip away. 
It is the one thing you can never get back. And another thing 
you will never get back, you will never claw back market share.
    Andrei, were you going to say something? Because the dairy 
products that we put out are phenomenal.
    Mr. MIKHALEVSKY. Well, I was just going to say that you 
asked about why TPA is so important and how we might explain 
that----
    Mr. KELLY. Right.
    Mr. Mikhalevsky [continuing]. Outside of this room. And my 
view on that is whenever you do a negotiation, as you 
mentioned, if you don't think you have someone across the desk 
that can make a decision, or that had some authority, your 
negotiation is not going to go very far. And if you believe 
that negotiation, when you bring it back, is going to get 
modifications or twisted or turned around, you are very unsure 
of how you are going to negotiate. You may not put your best 
foot forward, because you don't believe that you are actually 
negotiating the final and best deal for both countries.
    So, our support for TPA is we believe that is the fastest 
way to get the best deal, and then you bring it back to 
Congress for an up or down vote. But you have to have the 
authority sitting at the table, and people have to believe it. 
And that is the way I would explain it to anyone in our area.
    Mr. KELLY. Mr. Turner? Anything at all on that?
    Mr. TURNER. I would just expand on your prior question, 
which is, you know, we are competing globally. When you look at 
the population growth in India and China, Southeast Asia, you 
know, there is limited ag land, there is limited water, 
globally speaking. And we are here, the time is now, to 
position ourselves in the best possible way that we can to 
compete globally to feed the world and the next generation.
    Mr. KELLY. Okay. Well, I got to tell you, just from what I 
have done all my life, if I didn't have the decision-maker 
sitting across from me, I knew there was no sense in going 
forward with it, because I couldn't finish the deal. And I 
think that is what we are looking at right now. You all do such 
great things with the product, you work so hard. At the end of 
the day we are looking to get market share that grows and grows 
and grows and gets the American people back to work and does an 
awful lot of things.
    I think people want to own American products. I think 
sometimes we get to the point and we forget we are not the only 
person in town with a product. There is other people that will 
work just as hard for the market. But I just don't like the way 
we get gamed sometimes. Sometimes the specs are set up that, no 
matter what we do, we can't get there. And I guess that is 
where the oversight part comes in. But I want to thank you all 
for what you do. Not just what you--by coming here today.
    But would you please do me a favor, and to everybody in 
Congress, and the country? You all have such great credentials. 
You have great credibility. Your associations have the ability 
to get the message out to the American people in a way that 
they will believe it and they will understand it. That is the 
real challenge we have right now, the lack of understanding of 
how we get to market domination. How we get to growing our 
market share all lies in the fact that people just don't 
understand, and they seem to think that there is somehow that 
we can just sit back and they will come to us, the world will 
flow to us.
    I really do believe, with the market opportunity we have, 
the sky is the limit. We never had bluer skies or a stronger 
wind at our back in America than we have right now, of all the 
assets that we have. So it is just a time now to put ourselves 
in order, get out, win these trade negotiations. But we better 
have somebody at the table that can actually drive a hard 
bargain and come back home and say, ``You know what? I closed 
the deal, and it is good for everybody.'' It is a win-win 
situation.
    Thanks so much. Mr. Chairman, thank you for allowing me to 
be here. I appreciate that.
    Chairman NUNES. The gentleman yields back. I will just say 
that Congress has the authority vested by the Constitution. If 
we look at what has happened in the previous few years, whether 
it is the implementation of different laws that have passed the 
Congress, the various different executive orders, and not to 
get into the politics of this, but the situation with the 
Bergdahl-Taliban five swap, clearly--and I will just 
reiterate--we have to have trade promotion authority, or you 
could very well kill TPP in its infancy. That is the reality of 
the politics that we face, and it is the law.
    And so, I would encourage the Administration to work as 
quickly as they can with Chairman Camp and others to pass TPA 
as quickly as possible.
    Our record will remain open until June 25th. I urge 
interested parties to submit statements to inform the 
Committee's consideration of the issues discussed today.
    I want to thank all of you for your testimony. This 
Committee is now adjourned.
    [Whereupon, at 11:49, the subcommittee was adjourned.]
    [Questions for the record follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                              ----------- 
                              
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
